Supreme Court, U.S.
FILED

/

No.

h-i«7

APR 1 3 20®
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

LEROY K. WHEELER - PETITIONER
VS.
STATE OF NORTH DAKOTA et al - PETITIONER

ON PETITION FOR A WRIT OF CERTIORARI

TO THE CIRCUIT COURT OF APPEALS FOR THE EIGHTH
CIRCUIT

PETITION FOR WRIT OF CERTIORARI

LEROY K. WHEELER
P.O.BOX 5521
BISMARCK, N. D.
58506

RECEIVED
APR 2 0 2020

Si

/

QUESTION(S) PRESENTED
Do poor pro-se prisoners have a constitutional right to access the
courts and to justice that will compel courts to rule on the merits of
valid constitutional claims that is above a prejudicial point of view
of judges ?

//

LIST OF PARTIES

All parties do not appear on the cover, the following is also a
party:

Doug Burgum, Governor of North Dakota.

Ill

TABLE OF CONTENTS
OPINIONS BELOW
JURISDICTION......
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED............................................
STATEMENT OF THE CASE...................
REASONS FOR GRANTING THE WRIT
CONCLUSION............................................
UL
INDEX TO APPENDICES
APPENDIX A - Court of Appeals Judgment,

J-L

APPENDIX B - Magistrate’s Report & Recommendation,
District Court denying counsel & District Court
Adopting the R&R............................................
APPENDIX C - Court of Appeals denying
Rehearing En Banc.........................................
JL-C
APPENDIX D - State Supreme Court Decisions
-Ua.
APPENDIX E - State District Court Decisions
S~A
APPENDIX F - Record and transcripts............
,_f0
APPENDIX G - Miscelaneous Documents........
<?/ '
APPENDIX H - Petitioner’s Documents...........
±££)

n/

TABLE OF AUTHORITIES CITED
U.S. CASES
Andersen v. Maryland
427 US 463 (1976)........
Beto v. Cruz
405 US 319 (1972)........
Chambers v. Mississippi
410 US 284 (1973)........
Christopher v. Harbury
536 US 403 (2002)........
Evitts v. Lucey
469 US 387 (1985)........
Green v. McElroy
360 US 474 (1959)........
Haines v. Kerner
404 US 519 (1972)........
Harris v. Reed
489 US 255 (1989)........
Holms v. South Carolina
126 S.Ct. 1727 (2006)...
House v. Bell
165 LED 2d 1 (2006)....
Hudson v. McMillian
503 US 1 (1992)............
Lewis v. Casey
518 US 343 (1996)........
McQuiggin v. Perkins
185 LED 2d 1019 (2013)
Murray v. Carrier
477 US 478 (1986)........
Overton v. Bazzetta
539 US 126 (2003)........
Shinseki v. Sanders
173 LED 2d 532 (2009).
Warger v. Shavers
190 LED 2d 422 (2014).
Williams v. Taylor
529 US 362 (2000)........
Wolff v. McDonnell
418 US 539 (1974)........

A
n

l£L

JA
2A.
JJL
7
7

_2L
7.

2»

7
Al

UL
JJo
■JL.

V

FEDERAL CASES
Earl v. Fabian
556 F.3d 717 (8 Cir. 2008)
Owens v. Isaac
487 F.3d 561 (8 Cir. 2007)

■1£-

1±L

STATE CASES
Clair v. St. Clair
2004 ND 39, 675 NW2d 175

JA

U.S. CONSTITUTION
1st Amendment.
14th Amendment

_Z1
JA.

STATE CONSTITUTION
Article V section 7

•_2j2_

FEDERAL STATUTES
28
28
28
28

USC 1915 ..
USC 1915A
USC 2243 ..
USC 2244 ..

b
1

1
n

I

OPINIONS BELOW
In the federal courts below the opinion of the Court of appeals
for the Eighth Circuit is unreported at the present and appears at
Appendix - A, Appendix page 1, (App. P.).
The opinion of the United States District Court Magistrate’s
Report and Recommendation (R&R), appears at Appendix - B,
App. P.2, and the District Court’s Adopting the R&R appears at
Appendix -B, App. P. 23.
JURISDICTION
The opinion of the United States Court of Appeals that
decided my case was on December 10, 2019. A timely Petition
for Rehearing En Banc was denied by the United States Court of
Appeals on January 14, 2020, and a copy of the Order denying
Rehearing En Banc appears at Appendix - C, App. P. 25.
The jurisdiction of this Court is invoked under 28 USC 1254
(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
First Amendment - Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech; or the right of the
people peaceably to assemble, and to petition the Government
for a redress of grievances.
Fourteenth Amendment - No state shall make or enforce any
law which shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any person of
life, liberty, or property, without due process of law; nor deny
any person within its jurisdiction the equal protection of the
laws.
Eighth Amendment - .. .nor cruel and unusual punishments
inflicted.
28 USC 1915

stakes prt>v'<s/o»

3L

STATEMENT OF THE CASE
This is a case of a total denial of access to the courts
that is adequate, effective and meaningful in North
Dakota for all poor pro-se prisoners. This doesn’t mean
there isn’t some form of access, like creating
documents and getting some kind of a document into a
court file. It does mean that the substance of the
petitioner, LeRoy K. Wheeler (Wheeler)’s intended
content of his claims is being totally ignored by all state
courts, and now also in the federal courts below as well
that is denying this access.
There are 3 ways pro-se prisoners are being denied
adequate access to the courts: (1) a courts refusal to
judge the merits of Wheeler’s claims, through
recharacterization, etc.; (2) Prison Officials, immunized
by the courts, from official interference for altering
Wheeler’s outgoing legal and official mail contents;
and (3) Refusing to appoint Counsel to cure any defects
that the courts may have with Wheelers presentation of
his claims to the courts. Because accountability of
Government and judicial officers is non-existent in
North Dakota. The courts in combination with prison
officials have turned to personal prejudice to overrule
the rule of law by calling all pro-se suits either frivolous
or rule on procedural rather than on the merits of the
claim.
Under these catagories; involved here is Wheeler’s
criminal case with a postconviction and 2 civil rights
actions that fundamentally the courts refused to even
hear the merits, even though they all have substantial
merit. .Catagory (1) first, Wheeler’s criminal trial was
rittled with fundamental errors because Wheeler was
forced to act pro-se or have no evidence presented in
his behalf. Wheeler had to try, and the state took
advantage of that. The state presented false evidence to
convict Wheeler on some medical term, Tanner Scale,
see trial transcripts (herein after tr. Tr.) on the Tanner
Scale from Dr. Schanzenbach (Appendix F p. 83 )■

3

Wheeler had requested medical books to meet the state
and prepare for trial (App. H p.'* ), but the trial court
refused, (App. E p. 5J-53). At trial Wheeler objected on
unfair surprise and argued. The trial court ruled you can
have that for appeal but we are not going to do anything
about that now. Wheeler was subsequently convicted.
The state altered the trial transcripts and omitted the
argument and some other things as well. Wheeler
motioned to correct the record in the trial court (App. H
p.'fa) and the trial court denied it (App. E p.
The
same was filed in the state Supreme Court and the Clerk
said it would be heard with the merits on direct appeal.
(App. F p. 88). Wheeler’s Appellant Brief on direct
appeal, followed by 10 pages he was forced to remove
because the court would not allow more than 50 pages,
(App. H p. Zb1!) and also (Ap. D p. 2b). The state
Supreme Court in 7 day’s declared Wheeler’s entire
direct appeal frivolous (App. D p. 28). Wheelers
petition for Rehearing (App. H p.733), and the state
Supreme Court denied (App. D p.3 / Wheeler has not
seen these Tanner Scale books to this day.
Wheeler filed a postconviction in the state was based
misconduct because the juror was the landlord of the
Apartments where Wheeler lived with his Uncle and Aunt,
but was not on their lease. When Wheeler was arrested the
Police checked to see if Wheeler lived there, on juror being a
registered sex offender, and the landlord looked and Wheeler
was not on the lease, so the juror evicted all the trial-oewt(App. H p.i^-aftd occupants. In voir dire, however, the juror
denied any knowledge of Wheeler or his case. Wheeler
requested the landlords business records to prove the reason
for the eviction. (App. H
and was denied by the trial
court (App. E p. 6a, The state resisted Wheeler’s
postconviction (App. G p. 98). The trial court denied his
postconviction (App. E p.S~9\ Wheeler appealed to the state
Supreme Court (App. H p.^), and the State ersisted(App. G
p. /SI A The state Supreme Court affirmed the dismissal on
different grounds (App. D p.3 a j and it appears the main
reason to deny was because Wheeler elected to proceed pro-

H
se and said Counsel could have collected the proof Wheeler
needed.(App. D p. 34, paragraph 11). Wheeler petitioned for
Rehearing (App. H p.ary) but the State Supreme Court denied
it. (App. D p. Vo).
Category (2) Prison Officials were caught altering the
contents of Wheeler’s outgoing legal mail, and one
postconviction was dismissed due to that activity. (App. E p.
(, V; On many occasions, as well, prison officials
confmscated outgoing prisoner mail because they do not
approve of the content.
The first civil rights action was based on Prison officials
confmscating Wheeler’s letter to law enforcement on prison
conditions and then retaliating on Wheeler for writing and
sending it, by taking his prison job and moving him to another
unit. Wheelers brief to state District court (App. H p. ). The
state District Court granted summary judgement for
Defendants (App. E p.7 / ). Wheeler appealed to the state
Supreme Court (App. H p. ). State Supreme Court affirmed
(App. D p. yy.
The second civil rights action was against the Governor of
North Dakota, Doug Burgum, because government officials
were violating constitutional rights and law violations and
were not being held accountable and that he has a state
constitutional duty to enforce the law, and to conform prisons
within the state to U.S Constitutional mandates. See (App. H
p. ) Wheeler’s brief. The state District court dismissed the
case (App. E p. 7 V). Wheeler appealed to the state Supreme
Court, see brief (App. H p. ). The State Supreme Court
simply affirmed. (App. D p.
The state courts simply
granted immunity to all Defendants in both cases
unjustifiably.
Category (3) All these courts below refused to appoint
Counsel to Wheeler on all these causes of action because had
Counsel been appointed on all these cases would have been
reversed, because Counsel can force the courts to rule on the
merits or at least present it in a way to obtain a judgment that
the appeal courts would reverse, but pro-se prisoners cannot
obtain a proper ruling, due to bias, regardless of instructions

S’

for liberal construction. No one is holding these lower courts
accountable for an unjust judgment.
Wheeler then filed a 42 USC 1983, in U.S. District Court
based on the denial of adequate access to the courts that is
effective and meaningful based on state courts absolute ban on
justice for poor pro-se prisoners, No. 1:18-CV-265, and
requested Counsel )App. H p
The District Court denied
Counsel. (App. B p.3 )), then the Magistrate entered his
Report and Recommendation (R&R)(App. B p. 2). Wheeler
filed his Objections to the R&R that called his case frivolous.
(App. H p/^j.The District Court adopted the R&R (App. B p.
'. Wheeler appealed to the Court of Appeals for the Eighth
circuit. (App. H p. ). The Court of Appeals affirmed. (App.
A). Wheeler then filed a Petition to Rehear En Banc. (App. H
p. jfO). The Court of Appeals denied. (App. C).App.
REASONS FOR GRANTING THE PETITION
This case is about a total denial of access to the courts for
poor pro-se prisoners that is adequate, effective and
meaningful, in essence a total denial of access to justice in the
courts of North Dakota, and now in the Eighth Circuit. If this
Court does not take this case access to justice for all pro-se
prisoners will be impossible, and accountability for prison
officials and biased judgments is nonexistent. The decision of
the Court of Appeals is contrary to the decisions of this Court
on the issue of adequate access to the courts for prisoners.
Affirmance is the approval of the decision below, and that is
that of the Magistrate, and by these judgments gives the
Magistrate the authority to overrule this Court in the many
cases cited below. The Court of Appeals is intentionally
abusing it’s discretion on how to assess the facts and how it
applies the law to the facts and evidence at issue, and that
applying strikes to his meritorious claims has permanent
injury, tey ignore the facts of Wheeler’s Complaints and that
appointing Counsel is necessary to preserve prisoner rights
under the circumstances.
Wheeler has been interacting with these courts, fighting for
his life, since 2004, and the North Dakota practice is that

£

unless you have an attorney your documents are considered
frivolous, due to poverty, even in the face of evidence of a
reversible constitutional magnitude. The courts below have
totally denied Wheeler adequate access to the courts in 3
ways: (1) refusal to consider new evidence and/or merits to
secure a prisoners ban on acess, and by applying strikes under
28 USC 1915 (g); (2) by allowing Prison Officials to interfere
with a prisoners access by altering documents and exibits in
the prisoners outgoing mail; and (3) by refusing to appoint
Counsel when a prisoner cannot get his argument before the
court.
This Court must look into how the federal questions were
raised and how those courts in the state and federal have
passed on them. Ulster CountyN.Y. v. Allen 442 US 140, n.5
(Turnery. United States 396 US 398, 424 (1970)... Although
Respondents Memorandum did not cite the provision of the
constitution on which it relied, their citation of our leading
case applying that provision, in conjunction with the use of
the word “unconstitutional”, left no doubt they were making a
federal constitutional argument). And when those courts have
not been willing to consider those federal questions, see Dev
v. Hofbauer 546 US 1, 3 (2005)( Failure of a state appellate
court to mention a federal claim does not mean the claim was
not presented to it).
Now the 3 catagories of denying access; [1] This Court said
prisoner suits filed informa pauperis are not automatically
frivolous, but the courts below say they are. See Bell Atlantic
Corp. v. Twombv550 US 544, 555-56, n.3 (2007)( citing
Neitzke v. Williams 490 US 319 (1989) “ Complaint filed in
forma pauperis is not automatically frivolous so as to warrant
sua sponte dismissal pursuant to statute because Complaint
fails to state a claim... What Rule 12 (b)(6) does not
countenance are dismissals based on a judges disbelief of a
Complaints factual allegations”). See (App. B p. 3). A District
courts disbelief in the facts presented by Wheeler is
insufficient reason to refuse to apply the appropriate law to the
case properly before it. Then the courts applied their denials
based on procedural issues or otherwise to deprive a poor pro­
se prisoner of justice, rather than the liberal construction of

7

ruling on the new evidence, merits or on prior erroneous
evidentiary rulings. Murray v. Carrier All US 478, 501
(1986)( 28 USC 2243- the statutory mandate to dispose of the
matter as law and justice require clearly requires at least some
consideration of the character of the constitutional claim).
This Court ruled in Haines v. Kerner 404 US 519, 520 (1972)(
the only issue before usds the petitioner was denied the ability
to offer evidence to support his case.. .pro-se prisoner
complaints, however inartfully pleaded, must be held to less
stringent standards than that of attorneys). Wheeler has been
held to a higher standard than attorneys, and like Haines,
Wheeler is denied the ability to offer the proof on his
Complaint because his case was dismissed in prescreening
under 28 USC 1915A, (App. B p.2', even though Wheeler
showed substantial support for his claims in his Objections to
the R&R (App. H p./^r). The District Court Adopted the R&R
without discussion, as always. (App. B pW3). A prime
example, by this Court, of a proper consideration of a
plaintiffs claims on new evidence is displayed in House v. Bell
165 LED 2d 1,9-11 (2006). There, it was discussed the kind
of consideration Wheeler needs for his cases that would prove
effective, adequate and meaningful, and if this took place, in
Wheelers case, as in House, Wheeler’s case would be
reversed, but bias took over. Instead, justice has withered
away through the same deference the Magistrate showed in
this case, (App. B p. V), and blindly adopted by all reviewing
courts, a miscarriage of justice for Wheeler. See Cruz v. Beto
405 US 319, 321 (1972)( Johnson v. Avery... right of access to
the courts must be adequate, effective and meaningful, and
must be freely exercisable without hinderence or fear of
retaliation). (App. H p. ). See also Harris v. Reed 489 US
255, 273 (T989XAke- meaningful access to justice has been
the consistent theme of these cases. We recognized long ago
that mere access to the courthouse doors does not by itself
assure a proper functioning of the adversarial process). (App.
H p. ). This shows that just putting a document into a court
file is not access as the Magistrate suggests in Wheelers case.
(App. Bp. /fc'. Adequate access to the courts must mean a
proper ruling from the court based on the evidence presented

that was not heard by the jury or on a evidentiary ruling that
was improperly made that worked injustice for Wheeler and
that if the new unheard evidence was heard by the jury it
would produce a different result. See United States v. Asurs
427 US 97, 99, 103 (1976)( Prosecutors failure to turn over
victims criminal record
to defendant - the question to the answer depends on: 1).
The review of the facts; 2). The significance of the failure
of defense Counsel to request the material; and 3). The
standard by which the prosecutors failure to volunteer
exculpatory material should be judged.. .the Court has
consistently held that a conviction obtained by the knowing
use of perjured testimony is fundamentally unfair, (n. 8
many cases), and must be set aside if there is any
reasonable likelihood that the false testimony could have
affected the judgment of the jury, (n.9 - Giglio & Napue)).
After repeated requests the state failed to turn over the victims
criminal record, and the book on the Tanner Scale medical
evidence presented by the state, discussed later. Wheeler even
requested to continue the trial (App. G p. 91), because the state
declared he had medical evidence but did not declare what it was,
but the motion was denied, or if the evidentiary ruling was
improperly made, on purpose, pursuant to established law, or even
prosecutorial misconduct, that the verdict would have been a
different result. United States v. Wadlinston 233 F3d 1067, 107980 (8 Cir. 2000)( The plain error Rule is
Designed to correct only those errors that seriously affect
the fairness, integrity or public reputation of judicial
proceedings. United States v. Young 470 US 1, 15 (1985)”
United States v. Atkinson 297 US 157, 160 (1936). We
reverse only if certain that a miscarriage of justice would
otherwise result”.. .Because the cumulative effect of
prosecutorial misconduct must be assessed in determining
whether the defendant was prejudiced, a finding that each
particular instance of misconduct was harmless does not
end the inquiry).

f

Wheeler had multiple claims of prosecutorial misconduct and the
cumulative effect would affect the outcome of the trial as will be
discussed below. This type of access is what the courts below are
ignoring. This courts decision in Lewis v. Casey 518 US 343,
355-57 (1996)( In ...Bounds...the tools it requires to be
provided are those that the inmates need in order to attack
their sentences, directly or collaterally, and in order to
challenge the conditions of their confinement.. .Petitioners
brief the claim appears to be that all inmates .. .have a right
to nothing more than physical access to excellent libraries,
plus help from legal assistants and law clerks. Id. At 35.
This misreads Bounds, which as we have said guarantees
no particular methodology but rather the conferral of the
capability - the capability of bringing contemplated
challenges to sentences or conditions of confinement before
the courts. When any inmate.. .shows that an actionable
Claim of this nature which he desires to bring has been lost
or rejected, or that the presentation of such a claim is
currently being prevented, because this capability of filing
suit has not been provided, he demonstrates that the state
has failed to furnish adequate law libraries or adequate
assistance from persons trained in the law. Bounds 430 US
at 828).
Lewis describes a similar situation what Wheeler is facing but
slightly different, in that case petitioner said inmates was only
required access to libraries or help from legal assistants, but
this Court disagreed. Here, Wheeler, according to the
Magistrate said, Wheeler was allowed to create documents and
file them in court and that they ruled against him, and for that
reason the Magistrate feels satisfied is access to the courts. Harm
(App. B p. 1$). This Court in Williams v. Taylor 529 US 362,
383 (2000)( O’Conner J.
concurring.. .the maxim that federal courts should give great
weight to the considered conclusions of a co-equal state
judiciary.. .does not mean that we have in the past that federal
courts must presume the correctness of a state courts legal
conclusions on habeas, or that a state courts incorrect legal
determination has ever been allowed to stand because it was

/o
reasonable. We have always held that federal courts, even on
habeas, have an independent obligation to say what the law is).
The District Court below did not do that. Just because the state
courts rules against Wheeler does not mean it wasn’t based on
judicial bias, as this Magistrate is exhibiting here. The Harris
court, Ante at 7 disagrees, they said a proper functioning of
the adversarial process must mean a fair adjudication on the
merits of the claim. Wheeler’s attempt in the District Court, a
review of the rulings complained about, as Lewis said at 349,(
it is the role of the courts to provide relief to claimants, in
individual or class actions, who have suffered, or immenently
will suffer, actual harm). Wheeler has suffered actual harm in
all the suits he has filed, but the most concerning is his criminal
conviction, which if the evidence he has presented, and the
errors impartially viewed, will unquestionably result in an
acquittal. He has a life sentence when no crime occurred.
Chambers v. Mississippi^ 10 US 284 (1973)( holding: that a
combination of erroneous evidentiary rulings rose to the level
of a due process violation... the right to defend against the
states accusation). Wheeler’s criminal trial was rattled with a
multitude of errors intentionally set up by the state for the
purpose to overwhelm Wheeler and to insure he could not
succeed on appeal to obtain a reversal, some described below.
(App. H p
Wheeler’s direct appeal decision was unfair because during
the same time Wheeler was forced to sue the Warden because
the Warden refused to give Wheeler credit to do his direct
appeal in photocopying and postage. See Wheeler v, Scuetzle
2006 ND 115, 714 NW2d 829, and had arguments the same 4«</
back to back. Wheeler had to hand type 10 copies of both suits,
researching and putting the cases together without any money,
and no more extentions of time. See the Clerk of state Supreme
Court’s letter, (App. Dp.37), and their Court Order denying
extra pages. (App. DpJC
In addition, the state and court reporter, altered Wheeler’s
trial transcripts. To show an inference of the altering,
Wheeler’s request to order the transcripts dated 5-10-05, (App.
G p. 13), and the docket sheet to prove it, (App. G p. ? V , then

//

the court reporter responded that the transcripts should be done
by August 2005, (App. G p.
Then the trial judge finally
notified Wheeler, (App. G p. 96, because they were altering
them and needed more time. The court reporter even requested
an extension of time. (App. G p. 97). Wheeler never received
the transcripts until 11-1-05. If this Court chooses to not
correct the transcripts, no one else will correct this miscarriage
of justice, then the plain error rule should still suffice to reverse
on the following states introduction of the Tanner Scale, an
unfair surprise claim, in which Wheeler’s objection was
removed from the transcripts. See Wadlinston supra. Because
Wheeler reserved on unfair surprise claim for appeal and that
conversation was omitted from the transcripts, along with other
alterings, to avoid an inevitable reversal because the state using
irrelevant evidence to deceive the court and jury by fraud, that
medical term Tanner Scale, was elicited by the state in trial,
(App. F p.&3). Wheeler requested pre-trial 3 times to access
medical books, because the state claimed of having medical
evidence, and was denied saying the state said he wasn’t using
it, (App. E p. 5^-53), but he did anyway. In closing argument,
the state told the jury, the Doctor testified that he didn’t see any
signs of tearing or bruising .. .that is normal that when a person
is that developed.(App. F p. <f& ). Now the Doctors
testimony is also false (tr.tr. P. 568 L. 19), when he said the
Tanner Scale was used to describe the sexual maturation of
genitalia, instead of the growth of pubic hair. See United States
v. Pollard 128 F Supp. 1104, 1121-22 (6 Dist. 2000). This was
the states explanation as to why there was no evidence of a
crime, or tearing or bruising from the alleged sexual assault.
See Green v. McElrov 360 US 474, 496 (1959)(The evidence
needed to prove the states case must be disclosed to the
individual so that he has an opportunity to show that it is untrue
- was denied confrontation and cross-examination); Holmes v.
South Carolina 126 S.Ct 1727, 1735 (2006)( The point is that,
by evaluating the strength of only one party’s evidence, no
logical conclusion can be reached regarding the strength of
contrary evidence offered by the other side to rebut or cast
doubt). Still to this date Wheeler has no access to this medical
book on this Tanner Scale, and did sue to access it without

!2

success, see Wheeler v. DeSautel el al 2:12-cv-45, in U.S.
District Court. In Christopher v. Harbury 536 US 403, 414
(2002)( The official acts complained
To have denied access may allegedly have caused the los or
inadequate settlement of a meritorious case, e.g. Foster v.
Lake Jackson2S F3d 425, 429 (C.A. 5 1994); Bell v.
Milwaukee 746 F2d 1205, 1261 (C.A. 7 1984) “The coverup and resistence of the investigating Police Officers
reduced hollow [the plaintiffs] right to seek redress,” the
loss of an opportunity to sue, e.g. Swekel v. River Rouse
119 F3d 1259, 1261 (C.A. 6 1997) “ Police cover-up
extended throughout time to file suit...under...statute of
limitations,” or the loss of an opportunity to seek some
particular order of relief).
(App. H p. 162). Here Wheeler still does not have access to the
proof of the Tanner Scale book for authentication to file suit in
the courts and the courts below refuse to consider the caselaws
and the unfairness Wheeler received in trial. Denial of the
Tanner Scale book is the cover-up in Wheelers case. However,
on direct appeal Wheeler did not know what the Tanner Scale
was so he could only argue a denial of due process that he was
denied his right to present his version of the complainants
medical condition. Years later, because it was unavailable
before, Wheeler discovered a case law from the 6th Circuit in a
District Court case that this Tanner Scale is only used to
measure the growth of pubic hair (they said it was used to
guess the age of people depicted in pornographic photos), and
not as the state portrayed it in Wheelers case as explaining the
absence of tearing or bruising because she was so developed,
see the trial transcripts (App. F p.83 and closing arguments
(App. F p. @t>, and Pollard supra,Ante at 15, without the book
for authentication the statute of limitations is not run because
the cover-up continues,..Harbury supra, and the and the state
courts refused the case law as not qualifying. (App. F p.0?? o). Statute of limitations is 6 years in North Dakota (App. H
p. ' ).
After the unsuccess to obtain this book and based solely on
the Pollard case, Wheeler filed a postconviction relief motion

!3
in state District Court (App. Hp.p^o), and because this bar in
state court, Wheeler only received 2 letters from the court
Clerk that it was not allowed to be filed. (App. F p. 09-7C see
also (App. B p. 7 :j and the motion was returned so there was
nothing in the court file to appeal. (App. D p. ¥7 . That biased
trial court judge helped create all these problems for Wheeler
so it is no surprise that she would not allow any consideration
of this claim.
Because Wheeler has received a life sentence, being actually
innocent of the crime, Wheeler filed this denial of access to the
courts claim because no matter what a pro-se litigant files it’s
automatically frivolous no matter how much proof he has and
because there is no other suit in the future where Wheeler can
obtain relief of all of these biased state and federal court
rulings to obtain a just determination of all the unjust conduct
by the state.
The Magistrate in all his biased assessment states that we can
and should take judicial notice of the state court judgments in
this case, in otherwords great deference. (App. B p.¥;. In
Murray v. Carrier All US 478, 518 (1986)( Abstention from
the exercise of federal jurisdiction is the exception, not the rule,
the doctrine of abstention, under which the District Court may
decline to exercise or to postpone the exercise of its
jurisdiction, is an extraordinary and narrow exception to the
duty of the District Court to adjudicate a controversy properly
before it). These state court judgments is exactly what caused
the denial of access to the courts in the first place. Harbury
supra, and the Ddistrict Court should refrain from this judicial
notice, especially in this type of case, because sex crimes are
severely prejudicial and so many, as here, will allow that
prejudice to override true justice. In Wheeler’s objections to
the R&R, he showed that this Court said it is for the federal
courts to decide what the law is. Williams supra. Ante at f .
The District Court still adopted the R&R. (App. B p. 2$),
Wheeler made extensive arguments in that document on each
claim and supporting laws on how they should go forward and
it was all ignored. That’s what makes Wheeler believe
someone is altering his documents, or they are severely

/y

corrupt. See Barefoot v. Estelle 463 US 880, 892-93, n.4
(1983)( in
Order to make a substantial showing of a denial of a federal
right a petitioner who has been relief in a District Court
must demonstrate that the issues are debatable among
jurists of reason; that a court could resolve the issues in a
different manner; or that the questions are adequate to
deserve encouragement to proceed further).
Wheeler made this showing, and these courts are ignoring
justice. See also Owens v. Isaac4&7 F3d 561, 562-64 (8 Cir.
2007)( District Courts denial of inmates request to
Proceed in forma pauperis.. .was reversed.. .while the District
Court also expressed the view in the first action that the
inmates amended Complaint was subject to dismissal under
sec. 1915A because it was frivolous or malicious or failed to
state a claim, the court disagreed as at least some of the
inmates allegations appeared to state some claims against some
defendants.. .Conduct undertaken in retaliation for an inmates
exercise of constitutionally protected right is actionable, even if
the conduct would have been proper if motivated by different
reason).
The District Court below cannot say that none of the cases
Wheeler has presented states no claims that have merit, and
one of them was a retaliation for the inmates exercise of a
constitutional right case and still all was counted frivolous.
That is a clear biased determination against pro-se prisoners.
All of these cited cases state at least some merit.
The District Court here made no discussion as to why, other
than the state Supreme Court judgment, as to any frivolousness
of Wheelers claims, and did nothing to protect Wheeler’s
rights. These decisions below are contrary to this Courts
decision in Shinseki v. Sanders 173 LED 2d 532, 545 (2009)(In
ordinary appeals, for example, the appellant
Will point to rulings by the trial judge that the appellant claims
are erroneous, say, a ruling excluding favorable evidence.
Often the circumstances of the case will make clear to the

/sr
appellate judge that the ruling, if erroneous, was harmful and
nothing further need be said).
The Tanner Scale evidence above, alone proves it’s not
frivolous for the trial court judge to refuse Wheeler access to
medical books to defend against the states presented
arguments. Some might think that the Tanner Scale evidence
doesn’t make that much difference, but it does, it’s the only
evidence the state had against Wheeler and what makes it even
more important is that the claim was that the alleged victi was
bleeding from what happened the night before, (App. F p.00 ,
and also at a pre-trial motion to suppress hearing (App. F p. 8!
The trial court order denying that motion. (App. EP.^®
Chambers supra. So this is clear the Magistrate is biased and
the following judges adopting the R&R. They are not
considering the trial courts erroneous decision. By the
Magistrate giving great deference to the state court judgments
is to create his own law and deny pro-se prisoner rights. See
Jones v. Bock 166 LED 2d 798, 814 (2007)( The judges job is
to construe the statute, not make it better. The judge must not
read in by way of creation, but instead abide by the duty of
restraint, the humility of function as merely the translator of
anothers command).
Wheelers Postconviction Relief of 2007.
Wheeler also had an application for postconvition relief on
juror bias(App. H p. 197 ). One juror, Kristine Schantz
(Schantz), was landlord of Wheeler’s apartments where he
lived with his Uncle and Aunt. After Wheeler was arrested the
Police went to see if Wheeler actually lived there, 11 months
before trial, and when Schantz found out Wheeler was not on
the lease, she evicted all the occupants of that apartment
because Wheeler was staying there as a registered sex offender.
During voir dire Schantz denied ever hearing about Wheeler or
his case. Wheeler requested Schantz’s business records to
prove her knowledge of Wheeler before trial. (App. H p.
The tdal court denied it as close to the crime of harassment.
(App. E p.
, The prosecutor opposed Wheeler’s motion as
being a variation of a claim he used on direct appeal, a denial

/*

of impartial jury. (App. G p. 98). Wheeler filed an extensive
Reply brief (App. H p. 2OS' Wheeler’s direct appeal claim was
based on the jury venire was mostly people who were life long
friends of state actors. See Wheelers appeal brief and the
attached 10 pages he was forced to remove to meet the
deadline. (App. Hpjty The trial court denied Wheelers
postconviction based on the states request. (App. E p. SS
Wheeler appealed to the state Supreme Court (App. H p.
254), and the state resisted, (App. G p. 1251). The state Supreme
Court affirmed the dismissal but on the ground that Wheeler
chose to act pro-se, where Counsel could have collected the
proof he needed to support his claim. (App. D p.33, at 11)>
The state courts denial of the business records is contrary to
Anderson v. Maryland 427 US 463, All (1976)(we hold that
the search of an individuals office for business records, their
seizure, and subsequent introduction into evidence do not
offend the 5th Amendments proscription that no person...shall
be compelled in any criminal case to be a witness against
himself). See also Wareer v. Shavers 190 LED 2d 422, 428,
431-32, n.3 (2014)( applies to any proceeding in which
the juries verdict might be invalidated, including efforts to
demonstrate that a juror lied during voir dire (many cases)
... If a juror was dishonest during voir dire and an honest
response would have provided a valid basis to challenge the
juror for cause, the verdict must be invalidated.. .It simply
applies during an inquiry into the invalidity of the verdict that is, during a proceeding in which the verdict may be
rendered invalid, whether or not a jurors alleged
misconduct during voir dire had a direct affect on the juries
verdict. The motion for a new trial requires a court to
determine whether the verdict can stand.. .There may be
cases of juror bias so extreme that, almost by definition, the
jury trial right has been abridged. If and when such a case
arises, the court can consider whether the usual safeguards
are or are not sufficient to protect the integrity of the
process... Generally speaking, information is deemed
extraneous if it derives from a source external to the jury.
Tanner supra, at 117. External matters include publicity
and information related specifically to the case the jurors

n
are meant to decide, while internal maters include the
general body of experiences that jurors are understood to
bring with them to the jury room. Id. At 117-119).
Well Wheeler’s case here is such a case that juror bias is so
extreme that this Court needs to check the safeguards to protect
the integrity of the process when, as here, Wheeler had a prior
sex crime conviction and was lawfully registered but the juror
lied to hide the fact that she knew Wheelers criminal
background history, probably to make sure she could put him
in jail. Irvin v, Dowd 366 US 717, 722 (1961). Wheeler’s
background history was not allowed for the jurors
consideration because he did not testify at trial. Because
Wheeler is still denied access to those business records of juror
Schantz, the statute of limitations has not run because this
activity is a cover-up to block access. See Harbury supra, Ante
at/£ (citing Swekel).
On Wheeler’s claim of actual innocence has some
cotravercial problems, as shown above, because with the
shown District Court bias, how can Wheeler convice this
District Court with the new evidence, no juror would have
voted to convict him when the District Court here refuses to
even consider the gravity of Wheelers evidence, because bias
against pro-se prisoners is so extreme no law can compare. See
McOuissin V. Perkins 185 LED 2d 1019 (2013)(Held: Actual
innocence, if proven, held to be gateway through
which state prisoner petitioning for federal habeas corpus
relief might pass, regardless of whether impeded by
procedural bar or expiration of 28 USC 2244 (d)(1);
limitations period [1 year]...A petitioner does not meet the
threshold requirement unless he persuades the District
Court, in light of the new evidence, no juror, acting
reasonably, would have voted to find him guilty beyond a
reasonable doubt).
This District Court exibits a strong denial of access to the
courts, as if, in North Dakota, no prisoner has credibility or any
constitutional rights once convicted. Glebe v. frost 190 LED 2d
317, 320 (2014)( most constitutional mistakes call for reversal

//

only if the Government cannot demonstrate harmlessness.
Nedar v. United Stales 527 US 1, 8 (1999). Only the rare type
of error - in general, one that “infects the entire trial process”
and “necessarily renders it fundamentally unfair” - requires
automatic reversal). Wheeler’s cases have errors that rendered
his trial fundamentally unfair and therefore require automatic
reversal.
Even within the 8t]l Circuit the law tends to be clear on access
to the courts, but the courts below ignore their existence. Earl
v. Fabian 556 F3d 717, 726-28 (8 Cir. 2008)(
Access to the courts is a constitutional right whose basis is
unsettled. Scheeler v. City ofSt. Cloud 402 F3d 826, 830 (8
Cir. 2005). We conclude that a right of access to the courts can
be derived from the 1st Amendment.id. To prevail from the 1st
Amendment a claimant typically bears the burden of proving
that the defendants intentionally restricted his access...On the
other hand, “due process requires, at a minimum, that absent a
countervailing state interest, persons forced to settle their
claims of right and duty through the judicial process must be
given a meaningful opportunity to be heard.” Boddie v.
Connecticut 401 US 371, 377 (1971)...Supreme Court has
noted that sec. 2244 (d)(1)(B) “requires claim by claim
consideration.” Pace 549 US at 416, n.6).
There is no overriding state interest, and none of Wheeler’s
claims are heard because the District Court wants to bar all
pro-se prisoners, denying due process. Flere, the District Court
only applied due process to one claim, a claim that shouldn’t
even been considered. (App. B p. 13), all claims deserve due
process consideration. Even within the state, see Claire v. St.
Claire 2004 ND 39, P6, 675 NW2d 175 (Although prisoners
have diminished constitutional protections, they maintain a due
process right to reasonable access to the courts). Here,
reasonable usually means even more diminished, but no other
definition as to what extent they allow, nor any mention of the
1st Amendment right as Earl supra. In Wheeler’s cases there is
no right of access, reasonable or otherwise, according to state.
Wheelers Civil Rights Actions Denying Access.

n
Wheeler filed 2 civil rights actions against state officials and
the Magistrate says that Wheeler created documents, filed them
in court and they denied him, and he feels that should be the
end of story. (App. B p. 1?). But that does not satisfy adequate
access to the courts, there will be a more lengthy discussion on
this issue below.
The first civil rights action was Wheeler v. Schmalenbereer
et al. 08-2016-cv-01114, (call this one Wheeler II). In (App. B
p. 5), Magistrate cites this case as No. 20160361, which is the
state Supreme Court No. Where Wheeler wrote the state
attorney on prison conditions and he responded that you should
write the North Dakota Highway Patrol (NDHP) because they
have the jurisdiction inside the prison. Wheeler didn’t know
that the state attorney also wrote the Warden of North Dakota
State Prison (NDSP) and gave all the same information.
Wheeler then wrote the NDHP and sent the same 10 page letter
about the prison conditions. Well the Warden was aware and
when Wheeler gave it to his case manager to mail it, because
Guards were interfering with his mail, and Wheeler wanted it
to go out uncensored. Well the NDHP never received that
letter. When the letter was confmscated the Deputy Warden
called Wheeler to his office and scalded him about this letter,
and showed it to him, then pulled his job and later that night
moved Wheeler to another unit. An extensive record of this
activity is in the US District Court in Bismarck, N.D. under
case No. 1-1 l-cv-079, under the same names. There is nothing
in the letter would justify their action on Wheeler. (Call this
one Wheeler I), and because Wheeler exposed criminal activity
the Deputy Warden said, I’m going to silence you. (App. H p.
). In the state District Court, he granted summary
judgment for the defendants, on favoritism, not because
Wheeler didn’t have a claim. It’s clear that race discrimination
was at issue, and retaliation for the exercise of a constitutional
right was actionable. (App. E p.ZT), and (App. H p.). Wheeler appealed to the state Supreme Court and
it was affirmed (App. D p. W
The 2nd civil rights action was against the Governor, Doug
Burgum, No. 08-2017-cv-2892, S Ct. No. 20170444, (call it
Wheeler III). (App. H p.~
) & (App. B p. ), because

10

Burgum has a state constitutional duty to enforce the law, Art.
V sec. 7, “ thr Governor, as chief executive ...shall faithfully
enforce the law...” even within the prison as an entity that he
governs because the suit above no one was held accountable
for their unconstitutional conduct. (App. H p. /. The state
District Court never once made a communication, in that case,
directly to Wheeler. Basically, a denial to entertain a federal
cause of action. See Wheelers Objections for an extensive
argument. All communications from Burgums attorney, even
the court dismissal that was drafted by Burgums attorney,
(App. E p. 79), because Wheeler received an unsigned copy
before the judge electronically signed it. This is not even close
to adequate access to the courts. Wheeler appealed to the state
Supreme Court and it was affirmed (App. Dp. Hb,, just to
ignore Wheelers rights and the law, a denial of access. North
Dakota does have a statute that appears to immunize state
officials from any actions brought by prisoners, see NDCC 3212.2-02 (3), but no court seems to cite ifrely on it for denial so
Wheeler can challenge it, Haywood v. Drown 173 LED 2d 920
(2009), but Wheeler believes it is behind the scenes what
supports their judgment in their own mind.
With these decisions from the courts below have offered the
state absolute immunity without justification contrary to
Harlow v, Fritzserald451 US 800, 819 (I982)(we provide no
license for lawless conduct). (App. H p. 162). See also Will v.
Hallock 546 US 345, 353 (2006)( Qualified immunity is not
the law simply to save trouble for the
Government and its employees, it is recognized because the
burden of trial is unjustified in the face of a colorable claim
that the law on point was not clear when the official took
action, and the action was reasonable in light of the law as it
was).
The law here has been clear for a long time.
To prove it is the District Courts attempt to eliminate pro-se
prisoner suits is, without hesitation or fair consideration of
Wheelers need for justice, have applied these strikes against
Wheeler on his meritorious claims under 28 USC 1915 (g),
(App. Bp./?). They were made available for those who really

p/

have frivolous, malicious or fails to state a claim.. .but should
not be used simply because a person is labeled a prisoner. See
Owens supra, (the dismissal was reversed because... at least
some of the allegations appeared to state claims against some
defendants). However, the Magistrate made mention of the
definition of frivolousness in (App. B p. 10), said, “frivolous
claims are those that are clearly baseless, fanciful, fantastic or
delusional.” None of Wheelers claims fall under this category,
and clearly have merit based on those caselaws provided.
Wheelers claims are meritorious and no impartial person could
say that all of those claims are frivolous, if s just pure bias. The
District Courts application here, to apply a strike is a malicious
attack on poor pro-se prisoners, (App. B p. 18), that they no
longer protect prisoners constitutional rights contrary to,
Overton v. Bazzetta 539 US 126, 137 (2003)( Our
decision today is faithful to the principle that federal courts
must take cognizance of valid constitutional of prison
inmates, Prison walls do not form a barrier separating
prison inmates from the protections of the constitution.
Hence, for example, prisoners retain the constitutional right
to petition the government for the redress of grievances.
Johnson v. Avery 393 US 483 (1969). When a prison
regulation or practice offends a fundamental constitutional
guarantee, federal courts will discharge their duty to protect
constitutional rights. Procunier v. MartinezA 16 US at 40506).
Wheeler’s Constitutional rights, even his right to seek redress.
When the courts give immunity to prison officials, like in this
case, the Guards become gang members for their favorite class
of inmates, and the less favored classes are denied their 8th &
14th AmendmentjThe federal courts here refuse to discharge
their duty to protect rights. Even with video proof of staffs
wrong doing it’s impossible to get redress. See the grievances
(App. G p. 143), and Wheeler v. Schalenberser et al 1;11-cv079 (Wheeler I).
[2] Prison Officials Preventing Wheeler’s Access.

Wheeler has consistently complained to the courts that he
needed an attorney appointed because prison officials were
altering the contents of his mail &/or confmscating it
altogether, (Wheeler I & Wheeler II), so the court could receive
what Wheeler’s true intentions were that his claims are
meritorious and not frivolous. Wheeler had a postconviction
motion dismissed because prison officials removed several
documents from the envelope before mailing. (App. E p.
.
Wheeler has had legal mail completely disappear on many
occasions. He cannot write Attorney’s because he never gets
responses, he tries to call them and the phone numbers are
blocked. Another example is the civil rights actions shown
above in Wheeler I, II & III. Because the lower courts have
refused to hold them accountable they have not ceized. All of
those problems above and in combination deny access to the
courts and to justice. Chambers v. Mississippi 410 US of a due
process violation). Wheeler is denied due process because he
cannot get a fair hearing. See also Garner v. United States 424
US 648, 653 (1976)(to preserve our adversary system of
criminal justice by preventing the government from
circumventing that system by abusing it’s powers).
[3] Courts refusal to Appoint Counsel can Cause Denial of
Access.
Wheeler requested Counsel in every court and was denied. In
Wheeler’s criminal case he did not waive Counsel on direct
appeal, see (App. H p.333), & (App. H p. 153). In civil rights
actions, Wheeler II in the state District Court, its denial (App.
E p. 78). In Wheeler III, in state District Court and their denial
(App. E p. 7 9, and in the state Supreme Court Wheeler II
denial (App. D p. VU, and Wheeler III denied (App. D p.,$7 .
The federal District Court denied (App. B p. 19), then again in
, and their denial was the
the Court of Apeals (App. H p.~
affirmance, (App A). These decisions are contrary to this
courts decisions in (App. H p./X-C), and Evil Is v. Lucey 469 US
387, 396, 399-400 (1985)( A party whose Counsel is unable to
provide effective representation is in no
Better position than one who has no Counsel at all. A first
appeal as of right therefore is not adjudicated in accord
with due process of law if the appellant does not have the

py
effective assistance of an attorney... A system of appeal as
of right is established precisely to assure that only those
who are validly convicted have their freedom drastically
curtailed.. .The right to appeal would be unique among
state actions if it could be with drawn without consideration
of applicable due process norms. For instance, though a
state may choose whether it will institute any given welfare
program, it must operate whatever program it does
establish subject to the protections of the due process
clause).
of jail, and some, not all, get out and get another charge, and
Public Defenders won’t do their job effectively for the same
reason. Those who are falsely accused, such as Wheeler, get
lost in this practice and innocence is impossible, when you are
poor, in this new law of a lot of attorney’s don’t want to take a
case on sexual offenses because they fear public ridicule on
them getting a sex offender out prejudice as controlling. My
whole life has been screwed up because of this conduct, not
because I did wrong, I have the evidence of innocence but I
just can’t get an effective attorney who will do their job, in this
case Wheeler cannot get an attorney at all. Because of the level
of prejudice in these types of cases a strict scrutiny standard
needs to apply. Retribution should not be the sole end in
punishing, but it is here in North Dakota. Furman v. Georgia
408 US 238, 343 (1972)(Retaliation, vengeance and retribution
have been roundly condemned as intolerable asperations for a
Government in a free society).
The U.S. District Court below is only trying to eliminate pro­
se prisoner suits, because if they appointed Counsel it would
hinder their efforts to lighten their caseload, eliminate prisoner
complaints, and also by these bars being applied. In the Court
of Appeals they have followed suit with the District Court and
quickly affirmed the District Court decision to dismiss (App.
A). Wheeler filed an Appellate brief (App. H p.,
) for the
Court of Appeals to consider because Wheeler was pressed for
time to file his objections to the R&R, because the Magistrate
forced Wheeler to file Objections to 2 separate cases at the
same time within 14 day’s. See (App. H p.
). Wheeler filed

a Petition for rehearing En Banc (App. H p. ffO , because these
courts are not following a prisoner’s right of accessing the
courts and the Court of Appeals gave a quick denial (App. C)p. ir
and neither court would provide a statement to understand what
they relied on. The Magistrates R&R was clearly an abuse of
office.. The state court have put in place barriers on court
access to cover their unlawful judgments and to eliminate any
future inquiry into them that would expose their level of
corruption, and applied them to Wheeler, (App. E p. 6 9 , citing
State v. Iiolkesvis 2015 ND 105, P7-12, 862NW2d531.
Wheeler appealed to the state Supreme Court and that court
affirmed and modified the bar slightly, (App. D p. <// . In
appearance, it may look lawful, but in practice is unlawful. It
becomes a conflict on how they define and apply a frivolous
determination. Under the state court judgments poor pro-se
prisoner cases, without Counsel, are automatically frivolous,
nor have any constitutional protections. See Hudson v,
McMillian 503 US 1, 15 (1992)( The right file redress in the
courts is as valuable to a prisoner as to any other citizen.
Indeed, for the prisoner, it is more valuable...). Under all the
lower court decisions, unless this Court reverses, it is more
valuable for poor pro-se prisoners to be able to file these
actions, who have no attorney to force the court to Rule on the
merits or evidence.
In this case Wheeler’s life is in the hands of this Court, and
all pro-se’s for that matter, and this innocent man has served 16
years on a life sentence with no evidence that a crime even
occurred, &i*d unconsidered evidence ef innocence-

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

^ /j£l.

Dated April 13,2020.

Etibi't X

k

Case l:18-cv-00265-DLH-CRH Document 15 Filed 07/26/19 Page 1 of 16

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
LeRoy K. Wheeler,
Plaintiff,
vs.
The State of North Dakota and
Doug Burgum, Governor,
Defendants.

)
)
)
)
)
)
)
)
)
)

REPORT AND RECOMMENDATION

Case No. l:18-cv-265

The plaintiff, LeRoy K. Wheeler (“Wheeler”), is an inmate at the North Dakota State
Penitentiary (“NDSP”) and frequent filer with this court. He initiated the above-captioned action
pro se and in forma pauperis in December 2018. Chief Judge Hovland referred this matter to the
Magistrate Judge for initial review as mandated by 28 U.S.C. § 1915A. For the reasons set forth
below, I recommend that Wheeler’s complaint be dismissed with prejudice arid that he be assessed
a “strike.”
I.

BACKGROUND
A.

Wheeler’s Complaint

Wheeler is claiming that he has been denied meaningful access to the courts, that the courts
have denied him due process, and that Governor Burgum has failed to fulfill the duties of his office.
Specifically, he asserts:
Denial of Access to Courts: The State of North Dakota effectively denied the
plaintiff, LeRoy K. Wheeler (hereinafter Wheeler), adequate access to the Courts in
both criminal and civil courts proceedings to obtain effective review of his rights
, guaranteed through the U.S. Constitution. Access to the courts require states to assist
inmates in the preparation of meaningful documents to the court that judges can
make effective and meaningful judicial determination of the prisoners claims and to
provide appropriate relief, and if not, adequate assistance from persons trained in the
1

Case l:18-cv-00265-DLH-CRH Document 15 Filed 07/26/19 Page 2 of 16

law. To the following cases of Wheeler’s the state courts have declined to make a
judicial determination of his claims and how the evidence presented has denied his
Constitutional protections and how it would have had a different outcome. All
requests for court to assist were similarly denied without any good excuse, thus
banning justice for Wheeler. See the following cases: Burleigh County No. Wheeler
v. Burgum, 08-2017-cv-02892, app’d State S. Ct. No. 20170444; Burleigh County
No. Wheeler v. Schmalenberger et al 08-2016-cv-01114, app’d State S.Ct. No.
20160361; Grand Forks County No.’s State v. Wheeler 18-04K-01644, 01644,
01645, app’d State S. Ct. No.’s 20050257-20050258, a postconviction motion in
Grand Forks County No 18-2015-cv-248, 249 & 50, app’d State S.Ct. No’s
20150013-20150015. See also Claim. Wheeler is deprived of his right to challenge
his conviction and incorporate by reference all these cases.
* * *

Denial of Due process of law: Due Process is denied with the state courts refusal to
entertain a federal cause of action that the U.S. Supreme Court says they cannot deny
to entertain, its solely their duty to enforce the law, Howlett v. Rose, to comply with
Lewis v. Casey in claim #1.
* * *

Doug Burgum (Burgum)’s failure to exercise his constitutional duty to enforce the
law and oversight of the North Dakota State Pen (NDSP): Wheeler has a
constitutional right to challenge the conditions of.confinement. The-U.S. Supreme
court has said in Lewis v. Casey that is the political subdivisions of the States duty
to align the prisons with constitutional commands. . This would be Burgum’s
oligations in his oversight obligations as Governor. The above named suits in Claim
No 1 shows substantial violations of constitutional rights of Wheelers that are being
denied without judicial intervention and the burden falls on Burgum to exercise his
supervisory authority to realign the prison to respect U.S. Constitutional rights or
prisoners because of his constitutional duty to enforce the law, which, after
notification of the violations of prisoners rights in the suit against him, above, still
refused to exercise his authority to enforce the law that these suits.did not cure, as
a state act acting under the color of state law. Justice is totally denied to,all poor
prisoner simply because they cannot afford an attorney. There is also no means for
the poor prisoner to hold any state official or judicial officer accountable, especially
in a prison that enforces race discrimination and deny access ot the courts that
Burgum is supposed to make sure does not exist. Plus staff are giving Wheelers
incoming mail to other prisoners.
(Doc. No. 6). He seeks: “an injunction on Burgum to enforce constitutional rights of the U.S.
Constitution for prisoners in NDSP, to appoint an attorney to revisit all federal rights claims listed

2

By V

Case l:18-cv-00265-DLH-CRH Document 15 Filed 07/26/19 Page 3 of 16

in the named suits that were not adequately presented or ruled on to promote justice, a jury trial and
monetary relief under the circumstances & if necessary to-reserve- state dismissal & remand for
trial.” (Id.).
B.

State Cases Referenced in Wheeler’s Complaint

This court can and should take judicial notice of the following opinions issued by the North
Dakota Supreme Court in the state cases referenced by Wheeler in his Complaint.
1.

State v. Wheeler. Nos. 20050257 - 20050259

In State v. Wheeler, the North Dakota Supreme Court upheld Wheeler’s Convictions in state
district court for gross sexual imposition, encouraging the deprivation of a minor, and Contributing
to the delinquency of a minor.

'

[^f 2] Wheeler argues: (1) there is insufficient evidence to support the conviction; (2)
the district court erred in denying his request for a hearing under Franks v. Delaware,
438 U.S. 154, 98 S;Ct. 2674, 57 L.Ed.2d 667 (1978), to suppress evidence seized
during a search because the search warrant was based on false statements made to
the magistrate; (3) the court erred in denying his motion to dismiss; (4) the court
erred in denying his request for a change ofjudge; (5) his rights were violated by the
court's denial of his request to see the random jury draw; (6) his right to an impartial
jury was violated when he was forced to keep a predisposed jury panel and he was
forced to use his peremptory challenges on jurors who should have been excused for
cause; (7) the court erred in denying his request for a directed verdict of acquittal;
(8) the court erred in denying his motion for a new trial; (9) the judgments entered
were unlawful; and (10) the court erred in denying his request to correct the record.
Wheeler also argues he did not receive a fair trial because: (I) he was not allowed
to offer ah alternative explanation for the victim's medical condition because he Was
denied access to the medical school artd Chester Fritz libraries; (2) he was denied the
ability to prepare his witnesses for trial; (3) an ex parte suppression hearing was held;
(4) the prosecutor presented undisclosed evidence explaining the victim's medical
condition; (5) the prosecutor presented perjured testimony from law enforcement
officers; (6) the prosecutor asked leading questions on direct examination; and (7)
the prosecutor made improper arguments and comments to the jury.
[U 3] Wheeler argues the district court judgments were unlawful because the
judgments state Wheeler entered a plea of guilty when he was actually found guilty
by a jury. Although Wheeler did not enter a plea of guilty, the judgments are not
3

E* r

Case l:18-cv-00265-DLH-CRH Document 15. Filed 07/26/19 Page 4 of 16

unlawful. See State v. Marshall, 1999 ND 242, H 11-12, 603 N.W.2d 878. Rule 36,
N.D.R.Crim.P., provides, “[a]fter giving any notice it considers appropriate, the court
may at any time correct a clerical error in a judgment, order, or other part of the
record, or correct an error in the record arising from oversight or omission.” The
clerical error in the judgments appears to be an oversight by the district court. We
remand to allow the court to correct the judgments so that they accurately reflect the
proceedings.
[H 4] We have considered all other issues Wheeler raised and conclude that they are
completely without merit. We summarily affirm under N.D.R.App.P. 35.1 (a)(1) and

(3).
State v. Wheeler. 2006 ND 95, 719 N.W.2d 384. .
2.

Wheeler v. State. Nos. 20150013 - 20150115

1° Wheeler v. State, the North Dakota Supreme Court upheld a state district court’s order
dismissing Wheeler’s application for post-conviction relief and restricting his . ability to file
additional documents/applications for post-conviction relief in his criminal case.
[If 1] LeRoy Wheeler appeals from an order dismissing his application for
post-conviction relief, authorizing the clerk of court for Grand Forks County to
refuse to file any further documents in Wheeler's criminal cases and any future
applications for post-conviction relief other than documents related to an appeal in
this case, and relieving the State from any obligation to respond to any future
motions filed in district court unless the court reviews the motion, determines.it has
merit, and in writing requests a response. We affirm the order as modified.
I
[12] Wheeler argues the retroactive applicati on of a 2013 amendment to the statute
of limitations for post-conviction proceedings in N.D.C.C. § 29-32.1-01(2) is
unconstitutional. We conclude the 2013 amendments apply to Wheeler's application
for post-conviction relief filed after the effective date of the amendments, and we
affirm the order dismissing his application under N.D.R.App.P. 35.1(a)(7) and
Lehman v. State, 2014 ND 103, Iffl 10-14, 847 N.W.2d 119 (holding 2013
amendment to post-conviction relief statute applies to post-conviction relief
proceeding filed after effective date of amendment).
[H 3] Wheeler also argues the district court abused its discretion in prohibiting him
from making additional filings in this case.
[H 4] In State v. Holkesvig, 2015 ND 105, HU 7-12, 862 N.W.2d 531, we recently

4

Case l:18-cv-00265-Dl_H-CRH

Document 15 Filed 07/26/19 Page 5 of 16

modified a similar order prohibiting a litigant from filing motions or pleadings in his
criminal cases. We explained the Uniform Postconviction Procedure Act, N.D.C.C.
ch. 29-32.1, authorizes a district court to dispose of multiple, frivolous
post-conviction relief applications, and we modified a district court order to comport
with N.D.C.C. ch. 29-32.1 because he order allowed a clerk of court to refuse any
filings and appeared to limit the statutory provisions allowing for post-conviction
relief. Holkesvig, at *j 11.
[115 J We conclude a similar prohibition is proper here. We modify the district court's
order to comport with N.D.C.C. ch. 29-32.1 as follows: (1) Wheeler can pursue his
right to appeal to the North Dakota Supreme Court as provided by the North Dakota
Rules of Appellate Procedure, but he may not file any further motions or pleadings
in these cases at the district court level, except after seekingand receiving approval
of the presiding judge of the Northeast Central Judicial District, or his designee, to
file a proper application under N.D.C.C. § 29-32.1-04 where Wheeler succinctly and
concisely establishes an exception to the statute of limitation under N.D.C.C. §
29-32.1-01(3) and is not subject to summary disposition under N.D.C.C. §
29-32.1-^09; and (2) the State is relieved from any obligation to respond to any
further motions or pleadings filed in district court in these cases, unless the district
court reviews the motion or pleading, determines it has merit arid, in writing, permits
Wheeler's filing arid requests a response.
[If 6] We affirm the district court order as modified.
II

[If 7] We affirm the order denying Wheeler's application for post-conviction relief.
We modify the order prohibiting Wheeler from filing any further motions or
pleadings in these criminal cases and, as modified, we affirm.
Wheeler v. State, 2015 ND 264, 872 N.W.2d 634.
3.

Wheeler v. Schmalenberger, et ah, No. 20160361

In Wheeler v. Schmalenberger, et. al., the North Dakota Supreme Court affirmed the
dismissal of Wheeler’s civil rights action on summary judgment.
flj 1] Leroy Wheeler appeals froiri a district court order granting summary judgment
and dismissing his complaint alleging that individuals employed at the North Dakota
State Penitentiary violated his constitutional rights by confiscating a letter he had
mailed. We conclude there is no genuine issue of material fact. Summary judgment
dismissing the action is supported by the record, and the district court did not abuse
its discretion in declining to appoint counsel. We summarily affirm under
N.D.R.App.P. 35.1(a)(4) and (6).
5

Fx 7

Case l:18-cv-00265-DLH-CRH Document 15 Filed 07/26/19 Page 6 of 16

Wheeler v. Schmalenberger, et. al., 2017 ND 38, 891 N.W.2d 779.
4.

Wheeler v. Burgum, No. 20170444

In Wheeler v. Burgum, the North Dakota Supreme Court affirmed the district court’s
declination to appoint Wheeler counsel and dismissal of his action against North Dakota Governor
Doug Burgum.
[1[ 1] LeRoy Wheeler appeals a district court judgment granting Governor Doug
Burgum’s motion to dismiss and denying,Wheeler’s motion to appoint counsel. We
affirm.
I
[f 2] Wheeler, an inmate at the North Dakota State Penitentiary (“NDSP”), filed a
complaint alleging civil rights violations under 42 U.S.C. § 1983 by Governor
Burgum in both his official capacity and his personal capacity. The complaint alleges
that Governor Burgum failed to supervise and govern officials and staff at the NDSP.
Wheeler claims that NDSP officials and staff interfered with his mail, discriminated
against him on the basis of race, denied him access to the courts, prevented him from
challenging the conditions of his confinement, and retaliated against him for
exercising his rights. Wheeler sent Governor Burgum two letters commenting on the
conduct of these individuals. Governor Burgum did not respond to the letters.
Wheeler sought injunctive relief against Governor Burgum in his official capacity
for failing to supervise the actions of officials and staff at the NDSP. Wheeler also
sought punitive damages for Governor Burgum’s failure to respond to his letters or
otherwise investigate the issues described in his letters. Additionally, Wheeler moved
for appointed counsel.
[If 3] Governor Burgum moved to dismiss the complaint under N.D.R.Civ.P. 12(b)(6)
and opposed Wheeler’s motion to appoint counsel. The district court granted
Governor Burgum’s motion to dismiss and denied Wheeler’s motion for appointment
of counsel.
<
II
[If 4] Wheeler argues the district court erred by granting Governor Burgum’s motion
to dismiss under N.D.R.Civ.P. 12(b)(6) for failure to state a claim upon which relief
could be granted. “This Court reviews a district court’s decision granting a motion
to dismiss under N.D.R.Civ.P. 12(b)(6) de novo.” Nandan, LLP v. City of Fargo,
2015 ND 37, U 11, 858 N.W.2d 892. A motion to dismiss a complaint under
N.D.R.Civ.P. 12(b)(6) tests the legal sufficiency of a claim, which we construe in the
light most favorable to the plaintiff and accept as true the well-pleaded allegations
in the complaint. Id. Under N.D.R.Civ.P. 12(b)(6), a complaint should not be
6

tx 0

Case l:i8-cv-00265-DLH-CRH Document 15 Filed 07/26/19 Page 7 of 16

dismissed unless it is impossible to prove a claim upon which relief can be granted.
Id.
A. Official Capacity
[1f 5] Wheeler argues that Governor Burgum failed to supervise individuals working
for the NDSP, violating 42 U.S.C. § 1983. Section 1983 provides, in relevant part,
that every person who subjects any citizen “to the deprivation of any rights,
privileges, or immunities secured by the Constitution and laws, shall be liable to the
party injured....” 42 U.S.C. § 1983. The Department of Corrections and
Rehabilitation (“DOCR”) “is responsible to the governor.” N.D.C.C. § 54-23.3-01.
The governor appoints the director of the DOCR, who serves atjhe_pleasure of the
governor. N.D.C.C. § 54-23.3-03. In addition' to appointing the director,' the
governor “[sjhalj^supervise the official conduct of all executive and ministerial
officers.” N.D.C.C. § 54-07-01(1). The DOCR is “responsible for the direction and
general administrative supervision, guidance, and planning of adult-and juvenile
correctional facilities and programs within the state.” N.D.C.C. § 54-23.3-01.
[f 6] “Neither a state, an entity with Eleventh Amendment immunity, nor state
officials sued in their official capacity are ‘persons’ under 42 U.S.C. § 1983, and
neither is subject to Suit under the statute in federal or state court.” Perry Center, Inc.
v. Heitkdmp, 1998 ND 78, ^ 37, 576 N.W.2d 505. A claim seeking only injunctive
relief may proceed against a state official in his official capacity because
official-capacity actions seeking only prospective relief are not treated as actions
against the' State. Livingood v. Meece, 477N.W.2d 183, 190 (N.D. 1991). Wheeler
argues that Governor Burgum should be “enjoined to compel prison officials to
respect and enforce prisoners Constitutional rights in his official capacity.” However,
Wheeler does not cite any authority for his argument that would support § 1983
liability for such a claim.
[f 7] Although Governor Burgum is responsible for supervising the DOCR director,
who is responsible for the NDSP and its staff, the Governor’s supervisory
responsibility over the alleged actions Wheeler complains of is too indirect and
_ remote to support § 1983 liability. See Jackson v. Nixon, 747 F.3d 537, 543 (8thJCir.
2014) (stating, “While the doctrine of respondeat superior does not apply to § 1983
cases, a supervisor may still be liable under § 1983 if either his direct action or his
‘failure to properly supervise and train the offending employee’ caused the
constitutional violation at issue.”). Because Governor Burgum does not directly
supervise or train the officials or staff at the NDSP, he cannot be held liable in his
official capacity under § 1983. Thus, the district court did not err by concluding
Wheeler failed to state a claim for which relief can be granted against Governor
Burgum in his official capacity.
B. Personal Capacity
8] Wheeler argues that Governor Burgum’s failure to respond to his letters or
7

& 9

Case l:18-cv-00265-DL.H-CRH Document 15 Filed 07/26/19 Page 8 of 16

otherwise investigate his allegations was a deprivation of his statutory or
constitutional rights under color of law in violation of 42 U.S.C. § 1983. Wheeler has
not provided adequate support for his contention that Governor Burgum’s failure to
respond to his letters or otherwise investigate his allegations violated a constitutional
or statutory right. Public officials do not have a free-floating obligation to put things
to rights, disregarding rules (such as time limits) along the way. Bureaucracies divide
*849 tasks; no prisoner is entitled to insist that,orie~Qmployee do another’s job. The
division of labor is important not only to bureaucratic organization but also to
„_.efficient performance of tasks; people who stay within their roles can get more work
done, more effectively, and cannot be hit with damages under § 1983 for not being
ombudsmen. Burks’s view that everyone who knows about a prisoner’s problem
must pay damages implies that he could write letters to the Governor of Wisconsin
and 999 other public officials, demand that every one of those 1,000 officials drop
everything he or she is doing in order to investigate a single prisoner’s claims, and
then collect damages from all 1,000 recipients if the.letter-writing campaign does not
lead to better medical care. That can’t be right. The Governor, and for that matter the
Superintendent of Prisons and the Warden of each prison, is entitled to relegate to
the prison’s ... staff the [implementation of prison policy]. Burks v. Raemisch, 555
F.3d 592, 595 (7th Cir. 2009). Because Wheeler has not alleged any act or omission
by Governor Burgum that deprived him of any legal right, Wheeler has no claim
against Burgum in his personal capacity. The district court did not err by concluding.
Wheeler failed to state a claim for which relief can be granted against Governor
Burgum in his personal capacity.
Ill
F| 9] Wheeler argues that the district court erred by denying his motion to appoint
counsel. “Generally, there is no right to counsel in civil matters.” Riddle v. Riddle,
2018ND 62, f 16,907 N.W.2d 769; Davis v. Scott, 94 F.3d 444,447 (8th Cir. 1996)
(“Indigent civil litigants do not have a constitutional or statutory right to appointed
counsel.”). Wheeler provided the district court no citation to statute or other authority
authorizing appointed counsel to a civil litigant suing under 42 U.S.C. § 1983. On
appeal, he argues his right to reasonable access to the courts.requires appointment
of counsel, but we have never held reasonable access requires publicly-funded
counsel, and we reject the argument here. See Hamilton v. State, 2017 ND 54, f 13,
890 N.W.2d810 (stating that an appearance by telephone or deposition satisfies the
right to reasonable access to courts). Where a district court has authority to appoint
counsel in non-criminal matters, the Legislature has identified a source of funding
and provided that upon a finding of indigency an applicant is entitled to appointed
counsel. See N.D.C.C. § 25-03.1-13; N.D.C.C. § 27-20-26; N.D.C.C. §
29-32.1-05. Wheeler points to no state statute that would authorize appointed
counsel for his § 1983 claims, and his constitutional claims find no support in our
precedent. Because the district court was presented with no authority allowing it to
appoint counsel, it was not error to deny Wheeler’s motion for appointment of
8

fx /O

Case l:18-cv-00265-DLH-CRH Document 15 Filed 07/26/19 Page 9 of 16

counsel.
IV
flj 10] Because Wheeler has failed to state a claim for which relief can be granted,
the district court did not err by granting Governor Burgum’S motion to dismiss.
Further, the district court did not err by denying Wheeler’s motion to appoint
counsel. The judgment is affirmed.
Wheeler v. Burgum. 2018 ND 109, 910 N.W.2d 845.
II.

STANDARD OF REVIEW
When a prisoner proceeding in forma pauperis seeks to sue a governmental entity, officer,

or employee, the Prison Litigation Reform Act of 1995 (“PLRA”) requires the court to conduct an
early screening of the complaint to weed out claims that clearly lack merit with the hope that this
will help lessen the burdens imposed by the ever-rising numbers of prisoner suits, which too often
are frivolous and withoutmerit. Jones v. Bock. 549 U.S. 199,202-03 (2007); Woodford v.Ngo. 548
U.S. 81, 83-84 (2006). In conducting the screening required by 28 U.S.C. § 1915A, the court is
required to identify any cognizable claims and to dismiss the complaint, or any part of it, that is
frivolous, malicious, fails to state a claim, or seeks monetary relief from an immune defendant.
Neither 42 U.S.C. § 1983 nor the PLRA imposes any heightened pleading requirements,
however. Jones v. Bock. 549 U.S. at 211-12. Consequently, in order to state a cognizable claim,
the complaint need only meet the minimum requirements of Fed. K Civ. P.'8(a)(2), which are that
it contain “a short and plain statement of the claim showing that the pleader is entitled to relief.”
Erickson v. Pardus. 551 U.S. 89,93 (2007) (per curiam). In addition, when a prisoner is proceeding
pro se, the court is obligated to construe the complaint liberally and hold it to a less stringent
standard than what normally would be required of attorneys. Idj see also Federal Express Corp. v.
Holowecki. 552 U.S. 389, 402 (2008).

9

bye It

Case l:18-cv-00265-DLH-CRH Document 15 Filed 07/26/19 Page 10 of 16

Nevertheless, even though the pleading requirements are minimal and complaints are to be
liberally construed in pro se cases, this does not mean that the court must accept everything or
anything that is filed by pro se prisoners. In enacting the screening requirement, Congress
obviously expected it to be more than a ritualistic exercise and that courts would only allow to go
forward those claims that state a cognizable claim, that seek relief from a non-immune party, and
that are not obviously frivolous or malicious.
To meet the minimal pleading requirements of Rule 8(a)(2) for stating a cognizable claim,
something more is required than simply ^x^t:essjngca-d^if^fQr^Kef;£Ur)d4eclaring an entitlement
to it. See Bell Atlantic Coro, v. Twomblv.550 U.S. 544, 556 n.3 (2007) (“Bell Atlantic”! The
complaint must state enough to “give the defendant fair notice of what the ... claim is and the
grounds upon which it rests.” Erickson v. Pardus. 551 U.S. at 93 (quoting Bell Atlantic. 550 U.S.
at 555). In addition, even though the complaint is to be liberally construed, it must also contain
enough to satisfy Bell Atlantic’s “plausibility standard.” E.g.. Ventura-Vera v. Dewitt. 417 Fed.
App’x 591, 592, 2011 WL 2184269, at *1 (8th Cir. 2011) (unpublished per curiam) (citing Harris
v. Mills. 572 F.3d 66, 72 (2d Cir. 2009) for the appropriate post-Bell Atlantic standard); see also
Stone v. Harry, 364 F.3d 912, 914 (8th.Cir. 2004) (pro se complaints must allege sufficient facts to
state a claim). Complaints that-offer nothing more than labels and conclusions or, a formulaic
recitation of the elements are not sufficient. See id. Frivolous claims are those that are clearly
baseless, fanciful, fantastic, or delusional. See Denton v. Hernandez. 504 U.S. 25, 32-34 (1992).
To state a cognizable claim under § 1983, a plaintiff must normally allege a violation of a
right secured by the Constitution or the laws of the United States and that the alleged deprivation
was committed by a person acting under color of state law. West v. Atkins. 487 U.S. 42,48 (1988);

10

/x U

Case l:l8"CV-00265-DLH-CRH Document 15 Filed 07/26/19 Page 11 of 16

Walker v. Reed. 104 F.3d 156, 157 (8th Cir. 1997). Even under liberal pleading standards, a pro
se litigant, at the very least, must invoke' rights under the Constitution or federal law in order to
plead a § 1983 claim. Walker V. Reed, 104 F.3d at 157-58.
Finally, even though the court is obligated to construe pro se complaints liberally, the court
is not required to ignore facts that are pled by a prisoner when they undermine the prisoner’s claim.
The court may accept as true all facts pled in the complaint and conclude from them that there is no
claim as a\matter of law. E.g.. Thompson v. Ill. Dep’t of Prof 1 Reg.. 300 F.3d 750, 753-754 (7th
Cir: 2002) (citing other cases).
III.

DISCUSSION
A.

Wheeler’s Claims
1.

Court Access

Access to the courts is a fundamental constitutional right that “requires prison authorities to
assist inmates in the preparation and filing of meaningful legal papers by providing prisoners with
adequate law libraries or adequate assistance from persons trained in the law.” Bounds v. Smith. 430
U.S. 817, 828 (1977). However, there is ho right to a law library or to legal assistance per se, but
only “a reasonably adequate opportunity to present claimed violations of fundamental constitutional
rights to the courts.” Lewis v. Casey. 618 U.S. 343, 351, 116 (1996) (quotation Omitted).
An inmate asserting an access claim must prove that he has a colorable underlying claim for
which he seeks relief. Alvarez v. Attorney General for Fla.. 679 F.3d 1257, 1265-66 (11th
Cir.2012), quoting Barbour v. Haley. 471 F.3d 1222, 1226 (11th Cir.2006k see also Christopher v.
Harburv. 536 U.S. 403, 415 (2002) (recognizing that the right of access to the courts “is ancillary
to the underlying claim, without which a plaintiff cannot have suffered injury by being shut out of

11

Fy /-?

Case l:18-cv-00265-DLH-CRH Document 15 Filed 07/26/19 Page 12 of 16

court”). In addition, the inmate must show that he suffered an actual injury. See Lewis v. Casey.
518U.S.343, 349(1996).
Here, Wheeler’s claim that he was denied meaningful court access is predicated primarily
upon the state courts’ denials of his requests for court-appointed counsel in civil litigation that he
initiated either by complaint or by application for post-conviction relief. His claim is specious.
First, Wheeler’s complaint is devoid of any. allegation that the NDSP denied him access to
materials or resources such as a law library. Second, it is apparent from the face of the pleadings
(and the opinions issued by the North Dakota Supreme Court in the state cases referenced by
Wheeler) that Wheeler prepared and filed both civil rights actions and applications for post­
conviction relief and, when the state district courts ruled against him and restricted his ability to file
additional applications for post-conviction relief in his criminal case, appeal their decisions to the
North Dakota Supreme Court.
Third, it is well settled that indigent civil litigants like Wheeler have neither a constitutional
or statutory right to court-appointed counsel. Davis v. Scott. 94 F.3d 444,447 (8th Cir. 1996) (citing
Swope v.. Cameron. 73 F.3d 850, 851-52 (8th Cir. 1996)); see also Johnson v. Alexander. No.
2:12-CV-429, 2013 WL 915085, at *3 (W.D. Mich. Mar. 8, 2013 (“Bounds did not create an
abstract, free-standing rightto ajaw libjary, litigation tools, or legal assistance.”). Thus, Wheeler’s
bald assertion regarding the state courts’ denials of his requests for court-appointed counsel does
not constitute the basis for a cognizable constitutional claim.
Fourth, Wheeler has not demonstrated that he had colorable underlying claims for which he
sought relief, a prerequisite for establishing a denial of access to the courts claim. See Whitfield v.
Thompson. 165 F. Supp. 3d 1227, 1240 (S.D. Fla. 2016). After all, not every claim is protected by

12

Case l:18-cv-00265-DLH-CRH Document 15 Filed 07/26/19 Page 13 of 16

the right of access to the court. Christopher v. Harburv. 536 U.S. 403,415 (2002) (reiterating that
hindrance of frivolous claim does not result in actual injury and thus cannot give rise to claim for
denial of access to the courts).
Fifth, Wheeler has suffered no apparent injury as there is nothing in his pleadings to suggest
that his ability to pursue a non-frivolous claim has been frustrated or impeded. The notion that
adverse ruling by a state district courts constitutes an injury in the present context flouts all common
sense and logic. The pleadings evince that Wheeler was able to initiate civil rights actions and to
challenge his underlying criminal conviction.- And the North Dakota Supreme Court decisions in
the cases cited by Wheeler, which this court can take judicial notice of, belie his assertion that “state
courts have declined to make a judicial determination of his claims.”
-2.

Due Process

Wheeler next asserts he was denied due process in state district court presumably with
respect to the restrictions on his ability to'file in his state criminal case. Insofar as his assertion can
be construed as a procedural due process claim, it is clearly frivolous.
Taking judicial notice of the North Dakota Supreme Court’s decision in State v. Wheeler.
it is abundantly clear that Wheeler received notice of the filing restriction and thereafter was
afforded the opportunity to challenge it. The North Dakota Supreme Court upheld the restriction
albeit with a slight modification and in so doing gave Wheeler clear instructions on what he must
do in order to obtain permission to file in his criminal case. Wheeler v. State. 2015 ND 264 5, 872
N.W.2d 634.
Insofar as Wheeler’s assertion can be construed as claim that he is being denied court access,
it fails. “The right of access to the courts is neither absolute nor unconditional, and there is no

13

£> /r

Case l:18-cv-00265-DLH-CRH Document 15 Filed.07/26/19 Page 14 of 16

constitutional right of access to the courts to prosecute an action that, is frivolous or malicious.”
Cauthon v. Rogers. 116 F.3d 1334, 1337 (10th Cir. 1997) (internal quotation marks omitted).
Federal courts can and do regulate the activities of litigants by imposing carefully tailored restricts
under the appropriate circumstances. Tripati v. Beaman. 878 F.2d 351,352 (10th Cir. 1989) (citing
case law from the First, Second, Fifth, Tenth, and D.C. Circuits for the proposition that courts have
the inherent authority to regulate the activities of abusive litigants through imposition of appropriate
restrictions); see also In re Winslow. 17 F.3d 314,315 (10th Cir. 1994) (opining that restrictions are
appropriate if a party has engaged in a patter of litigation activity which, is manifestly abusive as
“[t]he goal of he goal of fairly dispensing justice is compromised when the Court is forced to devote
its limited resources to the processing of repetitious and frivolous claims.” (alterations and internal
quotations omitted)); see e^g,, United States v. Reed, Case No. 1: 10-cr-.041 (D.N.D.) at Docket No.
221 (requiring a pro se defendant to obtain the court’s permission before filing). It stands to reason
that state courts can too.
Federal habeas litigants are subject to temporal restrictions. See e.g.. 28 U.S.C. § 2244(d)
(establishing a one-year period of limitation in which to file a § 2254 habeas petition). They are also
restricted from filing second or successive habeas petitions unless and until they obtain the
appropriate appellate court’s permission. See e^., 18 U.S.C § 2244(b)(3)(A). These restrictions
are similar in spirit to. filing restrictions that the state courts have imposed upon Wheeler. Absent
more, the fact that the state courts have restricted Wheeler from continuing to file applications for
post-convictions relief unless and until he demonstrates that such applications fall within an
exception to state’s statute of limitations does not constitute a cognizable claim.

14

Ey lb

Case l:18-cv-00265-DLH-CRH Document 15 Filed 07/26/19 Page 15 of 16

3.

Gov. Doug Burgum

Wheeler’s claim against Governor Burgum is frivolous. The apparent basis of Wheeler’s
claim against the Governor is that he (the Governor) has failed to adequately supervise the NDSP
and its employees to ensure that inmates have the means of challenging the conditions of their
confinement. ■
First, there is a dearth of anything in the pleadings to suggest that the NDSP or those it
employs have in any way hindered Wheeler’s ability to access the courts. Second, the pleadings are
devoid of any alleged omission by the Governor that deprived Wheeler of any right. Finally, the
Governor’s supervisory responsibility over the alleged actions Wheeler complains of is too indirect
and remote to support § 1983 liability. See Jackson v. Nixon. 747 F.3d 537, 543 (8th Cir. 2014)
(stating,“While the doctrine of respondeat superior does not apply to § 1983 case's, a supervisor may
still be liable ufider § 1983 if either his direct action or his ‘failure to properly supervise and train
the offending employee’caused thfe constitutional Violation at issue.”).
B.

Application of the PLRA's Three Strikes Provision

The PLRA contains what is commonly referred to as the "three strikes" provision. This
provision, codified at 28 U.S.C. § 1915(g), effectively bars prisoners from bringing a civil action
or appealing a judgment in a civil action in forma pauperis if, on three, more prior occasions, he
filed an action or appeal that was dismissed on the grounds that it was frivolous, malicious, or failed
to state a claim. See 28 U.S.C. § 1915(g): see also Jackson v. Auburn Correctional Facility. Nos.
9:07-CV-0651 and 9:07-CV-0659, 2009 WL 1663986 , at *3 (N.D.N.Y. June 15, 2009) (Peebles,
M.J) ("The manifest intent of Congress in enacting this ‘three strikes' provision was to curb prison
inmate abuses and to deter the filing of multiple, frivolous civil rights suits by prison inmates.")).

15

By n

i

-

Case l:18-cv-00265-DLH-CRH Document 15 Filed 07/26/19 Page 16 of 16

It does make an exception, however, in instances when the prisoner is under imminent danger of
serious physical injury. See 28 U.S.C. § 1915(g). "The Court may sua sponte raise the three strikes
provision of the PLRA omits own initiative." McCreary v. Cox. No. 07-11478,2007 WL 2050268,
at *1 (E.D.Mich. 2007).
As this action is subject to dismissal on the grounds that it is frivolous and otherwise fails
to state a claim, it should be counted as a “strike” for PLRA purposes. See Brannon v. White. No.
4:10-CV-1704-TCM, 2010 WL 4065109, at '*2 (E.D. Mo. Oct. 15, 2010).
IV.

CONCLUSION AND RECOMMENDATION
There is no arguable legal basis for Wheeler advancing his claims under § 1983. I

RECOMMEND the dismissal of Wheeler’s complaint with prejudice on the grounds that it is
frivolous and otherwise fails set forth cognizable constitutional claims. I further RECOMMEND
that the court assess Wheeler a strike for PLRA purposes.
NOTICE OF RIGHT TO FILE OBJECTIONS
Pursuant to D.N.D. Civil L.R. 72.1(D)(3), any party may object to this recommendation
.

.

1 .

}

within fourteen (14) days after being served .with a copy of this Report and Recommendation.
Failure to file appropriate objections may result in the recommended action being taken without
further notice or opportunity to respond.

*-

Dated this 26th day of July, 2019.
/s/ Clare R. Hochhalter
Clare R. Hochhalter, Magistrate Judge
United States District Court

16

Ey IS

E?/)oi'h 3
Case l:18-cv-00265-DLH-CRH Document 19 Filed 08/23/19 Page 1 of 1
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
LeRoy K. Wheeler,

)

■

)

Plaintiff,

)■:

)
)
)

VS.

The State of North Dakota and Doug
Burgum, Governor,
Defendants.

)
)
)

ORDER ADOPTING REPORT
AND RECOMMENDATION

Case No. 1:18-cv-265

The Plaintiff, LeRoy K. Wheeler, initiated this action in December of 2018. After screening
the Complaint as required by 28 U.S.C. § 1915A, Magistrate Judge Clare R. Hochhalter issued a
Report and Recommendation, in which he recommended that the Wheeler’s complaint be dismissed
with prejudice on the grounds that it was frivolous and failed to state claims upon which relief can
be granted. See Doc. No. 15. Wheeler filed an objection. See Docket No. 18.
The Court has carefully reviewed the Report and Recommendation, and the entire record,
Wheeler’s objection, and finds the Report and Recommendation to be persuasive. Accordingly, the
Court ADOPTS the Report and Recommendation (DocketNo. 15) in its entirety and ORDERS that
Wheeler’s complaint be DISMISSED WITH PREJUDICE. The Court further ORDERS that
Wheeler be assessed a strike for PLRA purposes. Finally, the Court FINDS that any appeal would
be frivolous, could not be taken in good faith, and may not be taken in forma pauperis.
IT IS SO ORDERED.
Dated this 23rd day of August, 2019.
/s/ Daniel L. Hovland_______
Daniel L. Hovland, Chief Judge
United States District Court

Fx n

Additional material
from this filing is
available in the
Clerk's Office.

